March 5, 2003
Audit Report No. 03-016


The New Financial Environment
Project Control Framework




               0
                                         TABLE OF CONTENTS


BACKGROUND .................................................................................................................................... 1


RESULTS OF AUDIT ........................................................................................................................... 3


FINDING A: DEFINING AN INTEGRATED CONTROL FRAMEWORK FOR THE
NEW FINANCIAL ENVIRONMENT ............................................................................................... 4

           Recommendations...................................................................................................................... 5


FINDING B: COMMUNICATIONS MANAGEMENT ................................................................. 6

           Recommendation ....................................................................................................................... 7


FINDING C: RISK RESPONSE PLANNING ................................................................................. 8

           Recommendations...................................................................................................................... 9


CORPORATION COMMENTS AND OIG EVALUATION ......................................................... 9


APPENDIX I: SCOPE AND METHODOLOGY ........................................................................ 11


APPENDIX II: CORPORATION COMMENTS ......................................................................... 12


APPENDIX III: MANAGEMENT RESPONSES TO RECOMMENDATIONS .................... 14
Federal Deposit Insurance Corporation                                                                           Office of Audits
Washington, D.C. 20434                                                                              Office of Inspector General



   DATE:                                 March 5, 2003

   TO:                                   Fred S. Selby, Director
                                         Division of Finance



   FROM:                                 Russell A. Rau
                                         Assistant Inspector General for Audits

   SUBJECT:                              Audit of the New Financial Environment Project Control
                                         Framework (Audit Report No. 03-016)


   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
   completed an audit of the New Financial Environment (NFE) project control framework. This
   audit is the first in a series of reviews that we intend to conduct at critical milestones or decision
   points during the development and implementation of the NFE. Prior to this audit, the FDIC OIG
   performed two limited scope evaluations of the NFE project at the request of FDIC management.1
    The objective of this audit was to determine whether the FDIC has established a control
   framework for ensuring the delivery of a quality system that meets corporate requirements and
   user needs in a timely and cost-effective manner. A detailed discussion of our audit scope and
   methodology is contained in Appendix I of this report.

   The purpose of this report is to provide observations and recommendations intended to assist in
   ensuring the success of the NFE project. Providing this information at this point in the project's
   life cycle will afford the FDIC the opportunity to take timely corrective actions.


   BACKGROUND

   The NFE project is a major corporate initiative to enhance the FDIC's ability to meet current and
   future financial management and information needs. The project involves implementing a new
   commercial-off-the-shelf (COTS) software package to replace the FDIC's current core financial
   systems, which are based on the Walker Interactive Systems, Inc.'s Tamris software products.
   The project also involves extensive re-engineering of the FDIC’s business practices. The FDIC
   considers the re-engineering of its business practices to be a critical factor in achieving the
   1
       The first report, entitled The New Financial Environment Project, dated December 7, 2001 (Evaluation Report No.
       01-004), assessed the reasonableness of the NFE cost-benefit analysis and the financial systems architecture. The
       second report provided observations on selected procedures and documents related to the NFE Request for
       Proposal.
expected benefits of NFE and avoiding the high maintenance costs associated with software
customization.

In July 2000, the FDIC's Division of Finance (DOF) formed a project team to evaluate the FDIC's
current and emerging financial needs and recommend alternative solutions. On
December 10, 2001, the FDIC's Board of Directors approved contract expenditure authority for
the NFE project totaling approximately $28.8 million.2 The FDIC executed a multi-year contract
with Accenture, LLP (Accenture) on October 1, 2002, to replace its core financial systems with
PeopleSoft Financials. The contract contained a 4-year base period not-to-exceed approximately
$26 million. The Division of Information Resources Management (DIRM) is responsible for
contract oversight. The FDIC plans to implement accounts payable, accounts receivable, general
ledger, budget, procurement, treasury management, reporting, and portions of the cost
management modules on July 1, 2004. Enhanced cost management functionality is scheduled for
implementation in 2005.

Key to the success of any large and complex project, such as NFE, is implementing effective
management controls early in the project's life cycle. Such controls include both day-to-day
management of the project, such as scope, schedule, and cost controls, as well as controls that
reflect the broader environment in which the project operates, such as ensuring the project is
effectively coordinated with other related organizational projects. All of these controls
collectively comprise a project control framework.

The Project Management Institute (PMI)3 has conducted extensive research and analysis in the
field of project management and published a standards guide in 2000, entitled A Guide to the
Project Management Body of Knowledge (PMBOK® Guide). The PMBOK® Guide documents
proven practices, tools, and techniques that have become generally accepted4 in the field of
project management, including information systems development and implementation. The
PMBOK® Guide is an approved standard of both the American National Standards Institute and
the Institute of Electrical and Electronics Engineers. The PMBOK® Guide identifies nine
distinct knowledge areas associated with successful project management. The nine areas are as
follows:

•     Integration Management: The processes that ensure various elements of a project are
      properly coordinated. It consists of project plan development and execution and integrated
      change control.
•     Scope Management: The processes that ensure a project includes all of the work required,
      and only the work required, to complete the project successfully. It consists of initiation and
      scope planning, definition, verification, and change control.



2
    At the time the Board case was approved, the FDIC estimated the total life cycle cost of the NFE, including FDIC
    staff time, to be approximately $62.5 million over 8 years.
3
    PMI was established in 1969 as a not-for-profit project management professional association. PMI has over 95,000
    members in 125 countries worldwide.
4
    The PMBOK® Guide defines the term "generally accepted" as being applicable to most projects, most of the time,
    and having widespread consensus regarding value and usefulness.



                                                          2
•   Time Management: The processes that ensure timely completion of a project. It consists of
    activity definition, sequencing, and duration estimating as well as schedule development and
    schedule control.
•   Cost Management: The processes that ensure a project is completed within the approved
    budget. It consists of resource planning and cost estimating, cost budgeting, and cost control.
•   Quality Management: The processes that ensure a project will satisfy the needs for which it
    was undertaken. It consists of quality planning, assurance, and control.
•   Human Resource Management: The processes that make the most effective use of the
    people involved with a project. It consists of organizational planning, staff acquisition, and
    team development.
•   Communications Management: The processes that ensure timely and appropriate
    generation, collection, dissemination, storage, and ultimate disposition of project information.
     It consists of communications planning, information distribution, performance reporting, and
    administrative closure.
•   Risk Management: The processes concerned with identifying, analyzing, and responding to
    project risk. It consists of risk management planning, risk identification, qualitative and
    quantitative risk analysis, risk response planning, and risk monitoring and control.
•   Procurement Management: The processes related to acquiring goods and services from
    outside the organization. It consists of procurement and solicitation planning, solicitation,
    source selection, contract administration, and contract closeout.

We used the PMBOK® Guide, in conjunction with other government and industry guidance, as
the primary criteria for auditing the establishment of NFE project controls. Although the FDIC is
not required to comply with the PMBOK® Guide, we used the guide as criteria because it
contains sound and prudent practices related to successful project management.

RESULTS OF AUDIT

The FDIC established key controls for ensuring the delivery of a quality system that meets
corporate requirements and user needs in a timely and cost-effective manner as described in the
nine areas of the PMBOK® Guide. However, improvement is needed in three of the nine
PMBOK® areas (integration management, communications management, and risk management).
 Specifically, the FDIC had not formally defined an integrated control framework for the NFE
project. Without an integrated control framework, it will be difficult for the FDIC to ensure
accountability and a corporate approach on the project (See Finding A: Defining an Integrated
Control Framework for the New Financial Environment). The FDIC can also improve
communications management on the project. Without effective communications management,
the FDIC runs the risk that critical project information will not be provided to all NFE
stakeholders for decision-making in a timely manner (See Finding B: Communications
Management). Finally, the FDIC can improve its risk response planning for the NFE project.
Without such improvements, the NFE project team may be inadequately prepared for a significant
risk event, potentially increasing the impact of the risk (See Finding C: Risk Response
Planning).




                                                 3
                                 FINDINGS AND RECOMMENDATIONS

FINDING A: DEFINING AN INTEGRATED CONTROL FRAMEWORK FOR THE
NEW FINANCIAL ENVIRONMENT

The FDIC established key controls for ensuring the success of the NFE project, such as a steering
committee to manage and oversee the project, planning documents to track the project's progress,
and a risk manager to identify, evaluate, and mitigate project risks. However, the FDIC had not
fully defined the NFE control framework. Specifically, the FDIC had not documented an overall
framework explaining the roles, relationships, and reporting structures among key project players,
such as the NFE Steering Committee, project sub-groups, Capital Investment Review Committee
(CIRC), and senior management officials. In addition, the FDIC had not developed and approved
a charter for the NFE Steering Committee defining its responsibilities, membership, and operating
guidelines, although this committee began meeting in August 2000. The NFE Steering
Committee is a critical control for ensuring effective coordination and integration on the project.
The NFE project team postponed defining a control framework for the NFE or completing a
steering committee charter until the implementation phase of the project, when the team could
obtain input from Accenture on how these controls should be defined. Absent a formally defined
control framework, it will be difficult for the FDIC to ensure accountability and a corporate
perspective on the project.

The PMBOK® Guide stresses the need to identify, assign, and document clear roles,
responsibilities, and reporting structures for individuals and groups associated with a project in
the earliest phases of the project's life cycle. The Guide also describes how project management
processes and plans can be effectively integrated. The FDIC recently took a formal approach to
promote integration on its Enterprise Architecture (EA)5 project. In December 2002, senior FDIC
management formally approved an EA Blueprint document describing how the EA project is
structured and how EA products and processes are managed from a corporate perspective. The
EA Blueprint document included formal charters for each of the EA committees.

Similarly, formally defining all of the critical controls established for the NFE project and
documenting how these controls interrelate will promote accountability on the project and
strengthen management of the project from a corporate perspective. Ensuring a corporate
perspective for the NFE is especially important in light of the re-engineering of financial and non-
financial business processes that will take place on the project and the extensive coordination that
will be required across the FDIC's divisions and offices.




5
    An EA is an institutional systems blueprint that defines in both business and technological terms an organization’s
    current and target operating environments and how the organization will transition between the two.



                                                            4
Recommendations

We recommend that the Director, DOF, in conjunction with the NFE project team:

(1)    Develop and approve a charter for the NFE Steering Committee that defines, at a
       minimum, its responsibilities, membership, and operating guidelines.

(2)    Document an integrated control framework that explains, at a minimum, the roles,
       relationships, and reporting structures among key project players on the NFE project.




                                               5
FINDING B: COMMUNICATIONS MANAGEMENT

Since its inception in July 2000, the NFE project team has developed a number of channels for
disseminating information about the project throughout the Corporation and continued to refine
these channels on an ongoing basis. For example, the project team provided project status reports
and periodic briefings to senior FDIC managers and corporate committees and promoted
awareness of the project through the NFE Web site and FDIC News. However, communications
management could be improved. The NFE project team had not formalized and approved a
fundamental component of its communications strategy, a communications management plan.6 A
communications management plan had not been completed because the NFE project team and
Accenture had not completely defined the communications requirements for the project. Without
a formal communications management plan, the FDIC runs the risk that critical project
information will not be provided to all NFE stakeholders for decision-making in a timely manner.

The PMBOK® Guide states that identifying the information needs of project stakeholders and
determining a suitable means of meeting those needs is an important factor for project success.
On most projects, the majority of communications planning is completed during the earliest
project phases and reviewed regularly throughout the project. According to the PMBOK®
Guide, the primary output of communications planning is a communications management plan
that documents the methods for gathering, disseminating, updating, and storing project
information. The plan defines who receives what information and the methods for information
distribution.

An April 2002 study conducted by the Chief Financial Officers Council and the Joint Financial
Management Improvement Program, entitled Building the Work Force Capacity to Successfully
Implement Financial Systems, also identifies good communications as a critical success factor in
financial systems implementations. The study states that a management document identifying
critical actions and the people responsible for deliverables, and holding parties accountable for
those deliverables, is critical to the success of the overall project. The need for effective project
communications was also cited as a lesson learned in a recent DIRM report on FDIC system
development efforts.7

At the time of our audit, the NFE project team and Accenture had already defined many of the
components necessary for a communications management plan and were working on a draft plan.
 However, according to the NFE project schedule, a communications management plan was to be
completed and approved not later than December 15, 2002. Given the criticality of this important
document, the NFE project team should make completing and approving a communications
management plan a high priority.




6
  A communications management plan documents the processes required to ensure timely and appropriate
  generation, collection, dissemination, storage, and ultimate disposition of project information. It identifies project
  stakeholders and evaluates their information and communications needs (i.e., who needs what information, when
  they need it, how it will be provided to them, and who will provide it to them).
7
  DIRM report, entitled Post Implementation Review Trends Report, dated May 29, 2002.



                                                            6
Recommendation

We recommend that the Director, DOF, in conjunction with the NFE project team:

(3)    Promptly complete and approve a formal communications management plan for the NFE
       project.




                                             7
FINDING C: RISK RESPONSE PLANNING

The NFE project team began assessing NFE risks early in the project's life cycle and took steps to
improve its risk management8 practices as the project progressed. While these represent positive
actions, the FDIC could improve its risk response planning. Specifically, the NFE project team
did not establish clear measures for determining when project risks categorized as "significant"9
become a reality. In addition, the project team did not develop contingency plans, as appropriate,
for significant risks before they occur. Such measures and contingency plans did not exist
because the FDIC's risk management practices relative to the NFE project represented a new
approach to managing risks on corporate IT projects and was evolving. Without clear measures
for determining when significant project risks occur and appropriate contingency planning, the
NFE project team may be required to react to a significant risk event after it happens, potentially
increasing the impact of the risk.

The NFE project team established a risk management process for the NFE project in April 2001
when it completed a formal risk management plan. This process was expanded when the FDIC
designated the Director, Office of Internal Control Management (OICM), as the project's risk
manager in July 2002. As risk manager for the NFE project, the OICM Director is responsible
for administering the NFE risk management plan, identifying, evaluating, and mitigating project
risks, and preparing monthly reports to project stakeholders. Using a defined methodology based
on industry and government practice, the OICM identified seven specific risk factors10 related to
the NFE project that it classified as "significant." To address these seven significant risk factors,
the NFE team developed mitigation plans containing actions that management should take to
mitigate each risk factor. OICM is responsible for monitoring the implementation of the NFE
risk mitigation plans.

Some project risks, such as cost and schedule overruns, cannot be entirely mitigated. For this
reason, it is important to establish clear thresholds or measures for determining when a significant
risk has occurred or is about to occur. It is also important to consider contingency actions in
advance, in case a significant risk becomes a reality. The PMBOK® Guide states that risk
triggers, sometimes called risk symptoms or warning signs, should be established to indicate that
a risk has occurred or is about to occur. The PMBOK® Guide also states that developing a
contingency or fallback plan may be appropriate for some risks, particularly those risks having
potentially high impact. The most common type of contingency or fallback plans include the
8
   The PMBOK® Guide defines risk management as a “systematic process of identifying, analyzing, and responding
   to project risk." Risk management includes deciding how to plan a project's risk management activities, identifying
   risks and the measures that determine when a risk is about to occur or has already occurred, and using qualitative
   and quantitative analysis of risks and their implications on project objectives. Risk management also involves
   developing procedures to enhance opportunities and reduce threats, such as determining whether risks can be
   mitigated or a contingency plan is required, as well as ongoing monitoring and control of project risks and results
   evaluation.
9
   The FDIC’s risk management methodology used on the NFE project defines significant risks as having a high or
   moderate likelihood of occurrence with catastrophic impact on the project or having a high likelihood of occurrence
   with a critical impact on the project.
10
   The seven risk factors are (1) changing requirements, (2) funding estimates are inaccurate, (3) adequate technology
   is unavailable, (4) significant changes in business practices (workflow), (5) unrealistic project schedule, (6) contract
   oversight, and (7) simultaneous system development.



                                                            8
establishment of a contingency allowance or reserve, including amounts of time, money, or
resources, to account for known risks. Contingencies can also include development of alternative
options if a selected project strategy is not effective. This concept of proactive risk response
planning is also recognized in the NFE risk management plan, which states "the risk manager will
identify and the team will deal with potential problems early and develop contingencies to avoid a
crisis environment."

System projects may not proceed exactly as originally planned. Effective management of any
major project such as the NFE requires a well thought-out approach to handle significant project
risks and a mechanism for addressing those risks. Unless the NFE project team establishes
specific measures and contingencies, as appropriate, for risks classified as significant, it may be
left to react to these risk events as they occur. Advance contingency planning can greatly reduce
the impact of a significant risk should it become a reality on the NFE project.

Recommendations

We recommend that the Director, DOF, in conjunction with the NFE project team:

(4)    Consult with the NFE risk manager and Accenture to establish clear measures for
       determining when project risks classified as significant occur or are about to occur.

(5)    Develop contingency plans, as appropriate, for risk factors categorized as significant
       before they become a reality.

CORPORATION COMMENTS AND OIG EVALUATION

On February 21, 2003, the Director of DOF provided a written response to the draft report's
five recommendations to enhance and improve the overall project control framework for the
NFE. DOF concurred with all five recommendations. Corrective action for one
recommendation was completed prior to DOF's written response. DOF plans to complete
corrective actions for the remaining four recommendations by April 15, 2003. The following
summarizes DOF's response to each recommendation.

(1)    Develop and approve a charter for the NFE Steering Committee that defines, at a
       minimum, its responsibilities, membership, and operating guidelines.

DOF concurred with the recommendation. In its response, DOF indicated that the Steering
Committee membership had been finalized for the implementation phase of the project and that a
Steering Committee charter was being developed. The estimated completion date for
development and approval by DOF of a Steering Committee charter is March 15, 2003.

Recommendation 1 is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.




                                                 9
(2)    Document an integrated control framework that explains, at a minimum, the
       roles, relationships, and reporting structures among key project players on the
       NFE project.

DOF concurred with the recommendation. In its response, DOF indicated that it is in the process
of developing a “project governance” document to address the above recommendation and
identify other relevant project control documents. The estimated completion date for
development and approval of the project governance document by DOF is April 15, 2003.

Recommendation 2 is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

(3)    Promptly complete and approve a formal communications management plan for
       the NFE project.

DOF concurred with this recommendation. A communications plan was finalized and accepted
by the FDIC on January 29, 2003. The OIG confirmed with the contract oversight manager that
the communications plan was received and accepted on that date.

Recommendation 3 is resolved, dispositioned, and closed.

(4)    Consult with the NFE risk manager and Accenture to establish clear measures
       for determining when project risks classified as significant occur or are about to
       occur.

DOF concurred with this recommendation. In its response, DOF indicated that the NFE team will
meet with the NFE risk manager and Accenture to develop appropriate measurement criteria.
The estimated completion date for developing and approving the measurement criteria by DOF is
April 15, 2003.

Recommendation 4 is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

(5)    Develop contingency plans, as appropriate, for risk factors categorized as
       significant before they become a reality.

DOF concurred with this recommendation. In its response, DOF stated that the NFE team is
developing contingency plans for significant risk areas. The estimated completion date for
development and approval of contingency plans by DOF is April 15, 2003.

Recommendation 5 is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

A summary chart showing management's responses to all recommendations is presented in
Appendix III.




                                              10
                                                                                    APPENDIX I


SCOPE AND METHODOLOGY

To accomplish our audit objective, we interviewed Headquarters DOF, DIRM, and OICM
officials who were responsible for managing and implementing the NFE project. We also spoke
with representatives of the U.S. General Accounting Office to obtain their perspective on the NFE
project and its control framework. In addition, we spoke with representatives of Accenture, the
consulting firm hired by the FDIC to provide implementation services on the NFE, to become
familiar with Accenture’s control processes for managing and implementing the project. Further,
we attended NFE Steering Committee meetings and selected project briefings to observe certain
aspects of the NFE control framework. We also reviewed key documents related to the NFE
control framework, including the quality management plan, risk management and mitigation
plans, work breakdown structure, Board of Directors’ case authorizing contract expenditure
authority for the NFE, and relevant corporate correspondence.

The scope of our audit was limited to determining whether the FDIC had established a control
framework for ensuring the delivery of a quality system that meets corporate requirements and
user needs in a timely and cost-effective manner. Our audit did not evaluate the effectiveness of
the implementation of internal controls related to the NFE project. Such evaluations will be
conducted in future audits of the NFE. In addition, our audit did not assess the FDIC's
compliance with applicable laws and regulations because we did not identify specific laws or
regulations pertaining to the establishment of project controls.

Our audit included a determination of whether the FDIC had established performance measures to
control the NFE project, such as status reporting and budget and schedule variance analysis. We
plan to evaluate the adequacy and effectiveness of NFE performance measures as part of our
future coverage of the NFE. In addition, we corroborated automated information used to support
our audit findings, conclusions, and recommendations with other sources to ensure they were
sufficiently reliable. For example, we discussed information contained in project status reports
and plans with key project personnel. Throughout the audit, the auditors were sensitive to the
possibility of abuse or illegal acts. Finally, we relied on PMI's PMBOK® Guide as the primary
criteria for determining whether the FDIC had established a project control framework for the
NFE.

We conducted our audit in accordance with Generally Accepted Government Auditing Standards
during the period December 2002 through January 2003.




                                                11
                            APPENDIX II


CORPORATION COMMENTS




                       12
     APPENDIX II




13
                                                                                                                                                   APPENDIX III



MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as
of the date of report issuance. The information in this table is based on management’s written response to our report.

                                                                                                                                                              Open
 Rec.                                                                        Expected              Monetary       Resolveda :     Dispositionedb:              Or
Number           Corrective Action: Taken or Planned/Status                Completion Date         Benefits       Yes or No          Yes or No               Closedc
               DOF has finalized the Steering Committee
               membership for the implementation phase of
       1       the NFE project and is in the process of
               developing the Committee charter.                           March 15, 2003             N/A             YES                NO                   OPEN
               DOF is in the process of developing a
               “project governance” document that will
       2       address the recommendation and identify
               other relevant project control documents.                    April 15, 2003            N/A             YES                NO                   OPEN
               The Communications Plan was finalized and                     Completed on
       3       accepted by FDIC on January 29, 2003.                       January 29, 2003           N/A             YES                YES                CLOSED
a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                management provides an amount.
b
    Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
     implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                                   14
                                                                                                             APPENDIX III




                                                                                                                   Open
 Rec.                                                    Expected        Monetary   Resolved:   Dispositioned:       or
Number    Corrective Action: Taken or Planned/Status   Completion Date   Benefits   Yes or No     Yes or No        Closed
         The NFE Team will meet with the NFE risk
  4      manager and Accenture to develop
         appropriate measurement criteria.              April 15, 2003     N/A        YES            NO            OPEN
         The NFE team is developing contingency
  5      plans for significant risk areas.              April 15, 2003     N/A        YES            NO            OPEN




                                                              15
